                                                  NATIONAL SCIENCE FOUNDATION
                                                   OFFICE OF INSPECTOR GENERAL
                                                     OFFICE OF INVESTIGATIONS

                                            CLOSEOUT MEMORANDUM

1   Case Number: I03110047/Case Closeout                                                     Page 1 of 1



         The National Science Foundation (NSF) Office of Inspector General (OIG) selected this award as
         part of a review of conferences, workshops and symposia with respect to compliance with
         program income requirement. The award provided funds entirely for participant support for
         travel and registration fees of selected participants at the conference'. According to the grantee-
         supplied materials, a registration fee was charged to several participants.                  ;!

         NSFIOIG requested that the grantee provide us with financial information and supporting
         documentation for the award, specifically clarification regarding registration fees that were
         charged. The grantee advised that portions of the registration fees were used to provide a fund to
         the conference chair and for speaker/discussionsleaderlattendee cost to include travel, room and
         meals. The remaining fees went to providing onsite support for the administration of the
         meeting.

         The grantee provided all requested information, and it appears that the program income tkiat was
